BACKGROUND

        Section 11(4) of the Act states, in part, that “[c]omplaints, orders and other process and
papers of the Board, its member, agent, or agency, may be served either personally or by
registered or certified mail or by telegraph or by leaving a copy thereof at the principal office of
the person required to be served.” The Agency has a committee that is studying whether the
Agency should officially serve Board and ALJ decisions and orders electronically via the
Internet, rather than mailing paper copies as the primary method of service to the parties and the
public.

        The service of Board and ALJ decisions and orders is completed by the staff in the Office
of Executive Secretary and the Library and Administrative Services Branch. The Agency
reproduces 303 copies of Board decisions and orders and 123 copies of ALJ decisions and
orders. Parties who are served by certified mail with return receipt are also served by regular
mail. Other participants, including the General Counsel, are served only by regular mail. For the
General Counsel, the Regional Office that is assigned the case receives five copies by regular
mail. Several offices are involved in documenting the service. Three days after the service
copies are mailed, the decisions and orders are posted on the Agency’s Web site. Copies of
decisions and orders that are not served on the parties are distributed within the Agency or are
held as copies that are available upon request.

RESULTS

Cost to Serve Board and ALJ Decisions and Orders by Mail

        The Agency spent approximately $10,746 to serve 268 Board and 199 ALJ unfair labor
practice case decisions and orders issued in FY 2007. This is approximately $23 for each
decision. These costs are identified in the table below.

                                               Board               ALJ             Total
     Decisions and orders issued                268                199              467
     Decisions and orders pages                     4,252              3,852          8,104
     Decisions and orders served                    3,841              2,780          6,621
     Copies *                                      70,204            56,345        126,549
     Sheets of paper for decisions and
     orders served                                35,912           28,859        64,771
     Paper cost                                 $222.65           $178.93      $401.58
     Parties served by certified mail                724              541         1,265
     Certified mail cost                      $3,475.20         $2,596.80 $6,072.00
     Pieces of mail (regular and
     certified)                                    2,769            1,984         4,753
     Cost of postage                          $2,297.17         $1,723.74 $4,020.91
     Envelope cost                              $146.76           $105.15      $251.91
     Total cost of decisions and
     orders served                            $6,141.78         $4,604.62 $10,746.40
             * We use the term “copy” to mean an individual reproduction of one page.


                                                  2
System Costs

        The OCIO’s technical plan for supporting electronic service would primarily utilize
existing and developing information technology systems with additional expenses for increased
storage, licenses, and bulk e-mail delivery software. The OCIO estimates that the initial cost
associated with electronic service would be $6,000 for the remainder of FY 2008. The ongoing
yearly expenses to maintain the electronic service capability would be approximately $8,000.

Indirect Savings

        In FY 2007, the Agency leased two large capacity copy machines for the Copy Center for
reproduction of Board and ALJ decisions and orders. One of these machines cost $2,021 per
month and the other cost $2,229 per month, for an annual total of approximately $51,000 for the
two machines. Each of the machines has a monthly allowance of 200,000 copies. In FY 2007,
the Copy Center did not exceed the monthly copy allowances. Because the copies made of the
decisions and orders that were served on the parties were well within the existing allowance of
the copy machines, we were not able to attribute any copy costs to the service of decisions and
orders.

        More than half of the usage for the two copy machines in the Copy Center can be
allocated to reproducing decisions and orders for internal distribution. In FY 2007, the Copy
Center made approximately 2.8 million copies. Of those copies, 1.76 million were for the 303
copies of each Board decision and order and 123 copies of each ALJ decision and order. Only
126,549 copies were necessary to serve the parties. If the Agency ceased reproducing copies for
internal distribution, it could reduce the copies made each year by approximately 1.64 million.
With that reduction, the Agency could then consider ways to reduce the operational costs of the
Copy Center and also save the associated paper cost of more than $5,000.

Other Factors

       Federal law requires that the Agency promote the use of information technology to
improve the productivity, efficiency, and effectiveness of its programs, including the
dissemination of public information. Over the past several years, the Agency made significant
progress in moving to an information technology based method of processing its case work,
including accepting electronic submissions from parties. The electronic service of the decisions
and orders is a logical extension of that progress and is in line with these requirements.

        In August 2002, we issued an inspection report that included a suggestion that the
Agency take steps to eliminate most non-party mailings to the public and Regional Offices. That
suggestion was based, in part, on the cost associated with the distribution of the decisions and
orders and the internal delay associated with the distribution of hard copy reports to individuals
outside the Agency. At this time, other than discussing the issue, no action has taken place to
implement that suggestion.




                                                3
